<html>
<title> - REAFFIRMING THE PEACEFUL AND COLLABORATIVE RESOLUTION OF MARITIME AND JURISDICTIONAL DISPUTES IN THE SOUTH CHINA SEA AND THE EAST CHINA SEA AS PROVIDED FOR BY UNIVERSALLY RECOGNIZED PRINCIPLES OF INTERNATIONAL LAW, AND REAFFIRMING THE STRONG SUPPORT OF THE UNITED STATES GOVERNMENT FOR FREEDOM OF NAVIGATION AND OTHER INTERNATIONALLY LAWFUL USES OF SEA AND AIRSPACE IN THE ASIA-PACIFIC REGION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 REAFFIRMING THE PEACEFUL AND COLLABORATIVE RESOLUTION OF MARITIME AND 
 JURISDICTIONAL DISPUTES IN THE SOUTH CHINA SEA AND THE EAST CHINA SEA 
 AS PROVIDED FOR BY UNIVERSALLY RECOGNIZED PRINCIPLES OF INTERNATIONAL 
LAW, AND REAFFIRMING THE STRONG SUPPORT OF THE UNITED STATES GOVERNMENT 
FOR FREEDOM OF NAVIGATION AND OTHER INTERNATIONALLY LAWFUL USES OF SEA 
                AND AIRSPACE IN THE ASIA-PACIFIC REGION

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                              H. Res. 714

                               __________

                           SEPTEMBER 17, 2014

                               __________

                           Serial No. 113-204

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
89-812                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin
    added 5/29/14 noon 
CURT CLAWSON, Florida
    added 7/9/14 noon 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana--5/20/14        WILLIAM KEATING, Massachusetts
    noon 
CURT CLAWSON, Florida
    added 7/9/14 noon 


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 714, Reaffirming the peaceful and collaborative 
  resolution of maritime and jurisdictional disputes in the South 
  China Sea and the East China Sea as provided for by universally 
  recognized principles of international law, and reaffirming the 
  strong support of the United States Government for freedom of 
  navigation and other internationally lawful uses of sea and 
  airspace in the Asia-Pacific region............................     3

                                APPENDIX

Markup notice....................................................    14
Markup minutes...................................................    15
Markup summary...................................................    16
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    17
 REAFFIRMING THE PEACEFUL AND COLLABORATIVE RESOLUTION OF MARITIME AND 
 JURISDICTIONAL DISPUTES IN THE SOUTH CHINA SEA AND THE EAST CHINA SEA 
 AS PROVIDED FOR BY UNIVERSALLY RECOGNIZED PRINCIPLES OF INTERNATIONAL 
LAW, AND REAFFIRMING THE STRONG SUPPORT OF THE UNITED STATES GOVERNMENT 
FOR FREEDOM OF NAVIGATION AND OTHER INTERNATIONALLY LAWFUL USES OF SEA 
                AND AIRSPACE IN THE ASIA-PACIFIC REGION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 17, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order. Pursuant to 
notice, I call up H. Res. 714, a resolution reaffirming the 
peaceful and collaborative resolution of maritime and 
jurisdictional disputes in the South China Sea and the East 
China Sea for purposes of markup and move its recommendation to 
the full committee. Without objection, the resolution is 
considered as read and open to amendment at any point. I will 
now recognize myself for the purpose of speaking on the 
resolution.
    Tensions in the South China and East China Seas have grown 
significantly over the last year. Beijing placed an oil rig in 
territorial waters claimed by Vietnam; China unilaterally 
established an air defense identification zone (ADIZ) over the 
East China Sea; and the Philippines filed an arbitration case 
against China's assertions over waters within the Philippines' 
exclusive economic zone. We have witnessed a dangerously 
aggressive China trying to assert greater control over these 
territories to change the regional status quo in a way that 
violates core principles of international law; and we have seen 
our friends and allies in the region respond in defense by 
doubling their military spending and building their navies.
    A dangerous pattern is emerging, but a strategy to 
effectively manage the growth of these territorial and 
jurisdictional tensions is, at least at this time, not yet 
clear.
    H. Res. 714, introduced by my good friend, the ranking 
member, Mr. Faleomavaega from American Samoa, reaffirms U.S. 
commitment to the peaceful resolutions of territorial disputes 
in the South China and East China Seas. It recognizes the need 
to uphold international law as a way to safeguard the rights 
and freedoms of all nations in the Asia-Pacific region and 
further emphasizes the need for China to act as a responsible 
international stakeholder that respects international law, 
standards, and institutions.
    I am a co-sponsor of this resolution because the U.S. must 
support its friends and allies in the region against China's 
increasingly hostile behavior. We must help facilitate a 
collaborative process to resolve these disputes. There is no 
other issue in the Asia-Pacific region more worrisome than the 
rising tensions we are seeing as a result of China's efforts to 
coercively change and destabilize the regional status quo.
    As we will discuss in the hearing following today's 
markup--which will begin very shortly after the markup 
concludes--relations with China deserve more attention because 
the list of conflicts and challenges is growing in the range of 
security, political, and economic matters as is the risk of 
miscalculation by our two nations--China and the United States.
    I support this resolution and I would like to yield to the 
principal sponsor of the legislation, Mr. Faleomavaega, for the 
purpose of making an opening statement.

    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Mr. Faleomavaega. Mr. Chairman, thank you for holding this 
markup on House Resolution 714. I thank you for your 
friendship, as well as your support of this bipartisan 
resolution. Again, I commend you for your leadership and taking 
care in following up on this proposal.
    I also want to thank our ranking member, our former 
chairman, Congresswoman Ros-Lehtinen, Congressman Bera, and 
Congressman Bordallo for co-sponsoring this important 
legislation. Also Resolution 714 will provide peaceful and 
corroborative resolution of maritime and jurisdictional 
disputes in South China and East China Seas as provided for by 
universally-recognized principles of international law and 
reaffirms the strong support of the United States Government 
for affirmative navigation and other international lawful uses 
of sea and air spaces in the Asia Pacific region.
    Mr. Chairman, this resolution is similar to Senate 
Resolution 4102 which was passed in July of this year in 
response to China's aggressive acts which threaten the security 
structure of the region. In May of this year, China anchored 
its HD-981 oil rig within the exclusive economic zone of 
Vietnam and deployed over 80 missiles including 7 military 
vessels to support its attempt to change the status quo by 
force.
    Since 2009, China has escalated tensions in the South China 
and East China Sea. China has increased oil explorations in 
disputed areas, implemented measures which attempt to change 
crucial regulations, cut the cables of a Vietnamese exploration 
ship, used guns to threaten Vietnamese fishing boats, warned an 
Indian naval vessel, rammed Japanese patrol boats, fired shots 
at a Filipino fishing boat, caned a Taiwanese fisherman, 
conducted military exercises in the South China Sea to flex its 
power. Added to other claimants, declared an air defense 
identification zone or ADIZ over the East China Sea and this is 
just the tip of the iceberg, Mr. Chairman.
    The Governments of Japan, Korea, the Philippines, Australia 
and Indonesia have expressed deep concern about China's 
declaration of an ADIZ over the East China Sea. Such a zone 
violates international norms and accepted practices. With the 
successful passage of Senate Resolution 412, the Senate has 
made it very clear that the United States will not allow 
China's announcement of an ADIZ to alter how the United States 
Government conducts operations in the region.
    Freedom of navigation and other lawful uses of sea and air 
spaces in the Asia Pacific region are embodied in international 
laws and not created by China or any other state to others. 
China must respect international laws governing sea and air. 
Left unchecked, Mr. Chairman, I believe China will continue to 
assert its way through the region and such provocative actions 
on the part of China will not bode well for the region, nor for 
the United States, especially since these are not only local or 
regional issues, but serious international issues that impact 
the safety in commerce of our global community.
    I commend the Government of Vietnam for its peaceful, but 
courteous stand which led to China's withdrawal of Chinese 
vessel HD-981 oil rig and I also appreciate the Governments of 
Taiwan and Japan for peacefully reaching agreement to jointly 
share fishing resources in their overlapping EEZ zones through 
the East China Sea Initiative. Resolutions can be achieved 
through peaceful means and so I sincerely hope that China and 
the association of Southeast Asia nations will develop an 
effective code of conduct and I ask respectfully my colleagues 
to support this resolution.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much, Mr. Faleomavaega and we 
thank you for your leadership on this issue. As I indicated I 
support the measure and would urge its passage.
    Are there any other members who seek recognition? If not, 
are there any amendments? If not, the question occurs on the 
motion to report the resolution favorably.
    All in favor say aye.
    Any opposed say nay.
    It appears that the ayes have it. And in the opinion of the 
Chair, the ayes have it and the motion is approved and the 
resolution is reported favorably. Without objection, the 
resolution will be reported favorably to the full committee. 
And that takes care----
    Mr. Faleomavaega. Will the chairman yield?
    Mr. Chabot. I would be happy to yield to the gentleman.
    Mr. Faleomavaega. I realize that members of our committee, 
other members of our committee are not here, but this is not to 
give the impression that this has not been through the approval 
process of our committee. There are other members who do 
support it, but they are not here physically. And I just want 
to make sure that for the record that the public will 
understand the situation.
    Mr. Chabot. Yes, I agree with the gentleman's statement and 
there are alot of markups going on. I am supposed to be in 
another markup which is going on right now in another committee 
and I am sure they are happening all over the place. It is 
probably the last week before the election which is about a 
month off and there is a lot of business that is trying to be 
wrapped up in this week.
    Mr. Faleomavaega. It is the nature of the beast.
    Mr. Chabot. It is the nature of the beast. That is for 
sure. So at this time, the committee will stand adjourned only 
until we have an opportunity to switch over the necessary 
places at the desk and as soon as our witnesses arrive, we will 
get started on the hearing. So we are adjourned for a short 
period of time.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
